°
IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER 2020 TERM
o

EDGAR GOMEZ,
PETITIONER
v.
RAYMOND MADDEN, Warden
RESPONDENT
od

MOTION FOR LEAVE TO FILE JN FORMA PAUPERIS
Petitioner asks leave to file the attached petition for writ of certiorari without
prepayment of costs and to proceed in forma pauperis. Petitioner is an inmate at Pleasant Valley
State Prison in Coalinga, California. Petitioner has had counsel appointed pursuant to 18 U.S.C.
§ 3006A throughout his federal habeas proceedings.

Dated: September 1, 2020 Respectfully submitted,

Jan B. Norman

Attorney for Petitioner-Appellant
Juan Gilberto Medrano

Jan B. Norman

10627 Fitzroy Avenue
Tujunga CA 91042
Telephone: 818-273-9282

email: janbnorman@gmail.com
PROOF OF SERVICE

STATE OF CALIFORNIA )
) ss.
COUNTY OF MONTEREY )

Tam employed in the County of Monterey, State of California. I am over the
age of 18 and not a party to the within action. My business address is 71 Via Paraiso, Monterey,
California 93940.

On September 1, 2020, I served the within entitled document described as
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS on the interested parties in said
action through the electronic filing system of the United States Supreme Court and placing a true
copy thereof in the United States mail enclosed in a sealed envelope with postage prepaid,
addressed as follows:

David E. Mateo
Deputy Attorney General
Office of the Attorney General

300 South Spring Street, Suite 1702
Los Angeles, California 90013

I declare under penalty of perjury under the laws of the State of California that
the foregoing is true and correct.

Executed on September 1, 2020, at Monterey, California.

JAN B. NORMAN
